<html>
<title> - A PRESENTATION BY NATIONAL 4-H CONFERENCE PARTICIPANTS CONCERNING THE FUTURE OF AGRICULTURE IN THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     A PRESENTATION BY NATIONAL 4-H
                   CONFERENCE PARTICIPANTS CONCERNING
                      THE FUTURE OF AGRICULTURE IN THE 
                               UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-10
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                                ___________
                                
                                
                   U.S. GOVERNMENT PUBLISHING OFFICE
94-334 PDF             WASHINGTON : 2015                   
                         
________________________________________________________________________________________                         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  
                         
                         
                         


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
TOM EMMER, Minnesota
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     4
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     2
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    41

                               Witnesses

Harden, Hon. Krysta L., Deputy Secretary, U.S. Department of 
  Agriculture, Washington, D.C...................................     5
    Prepared statement...........................................     7
4-H Presenters:
    Rogers, Harley, Hamilton, TX.................................    10
    Swan, Alexandra, Newark, DE..................................    11
    Germann, Gabriella, Ceres, CA................................    11
    Parrent, Jillian, Normal, IL.................................    11
    Nierman, Shelby, Brownstown, IN..............................    12
    Foster, Kailey, South Kingston, RI...........................    13
    Brazeau, Danielle, Storrs, CT................................    14
    Searcy, Colton, Porterville, CA..............................    14
    Hasbargen, Hannah, Wheaton, MN...............................    14
    Weibel, Brook, Burns, WY.....................................    15
    Hofmeister, Wade, Brush, CO..................................    16
    Tomera, Garrett, Spring Creek, NV............................    17
    Basset, Tyler, St. Charles, ID...............................    17
    Schmidt, Darby, Defiance, MO.................................    17
    Schofield, Shaynen, Knox, ME.................................    18
    Golbuff, Jennifer, Fort Collins, CO..........................    18
    Winters, Merah, Belton, TX...................................    19
        Joint prepared statement.................................    19


                     A PRESENTATION BY NATIONAL 4-H
                   CONFERENCE PARTICIPANTS CONCERNING



             THE FUTURE OF AGRICULTURE IN THE UNITED STATES

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Rodney 
Davis [Chairman of the Subcommittee] presiding.
    Members present: Representatives Davis, Scott, Denham, 
Yoho, Moolenaar, Newhouse, Conaway (ex officio), DelBene, 
McGovern, Kuster, Graham, and Peterson (ex officio).
    Staff present: Haley Graves, Jessica Carter, John Goldberg, 
Patricia Straughn, Ted Monoson, Anne Simmons, Keith Jones, and 
Nicole Scott.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research, regarding a 
presentation by National 4-H Conference participants concerning 
the future of agriculture in the United States, will come to 
order. I would like to, before we go into opening statements, 
advise all Members here that a series of votes will be called 
very shortly, possibly around 1:00 rather than 1:20, so 
hopefully we will get through some opening statements, and if 
we have to break, that actually may be done much more quickly 
than what I initially envisioned when I spoke with many of you 
in the audience earlier. Excuse me. I will go ahead and 
commence with my opening statement.
    And good afternoon, and welcome to our first hearing of the 
Subcommittee on Biotechnology, Horticulture, and Research. As 
policymakers, this is a great opportunity to hear from future 
leaders that are here today who are participating in the 
National 4-H Conference. Again, thank you all for being here 
with us today to discuss how the future of agriculture can be 
sustained through enhancing the rural/urban coalition.
    Here in the Agriculture Committee we saw just how 
challenging it was to enact this most recent farm bill. If we 
do not mend the divide between rural and urban areas, and 
foster a more widespread understanding of the food and fiber 
industries, and the impact that they have on everyday life, it 
is likely we may face the same challenges enacting future farm 
bills. This Committee strives to promote policies that will 
protect and increase access to safe and affordable food, but 
has encountered opposition from organizations and individuals 
who do not see the need for continued Federal involvement. That 
is why strengthening the relationship between rural and urban 
communities is critical to addressing the long term challenges 
we face in production agriculture.
    Today's hearing is the first in a series that will 
highlight extension and research programs which support the 
enhancement of a rural/urban coalition, and it is fitting for 
our introductory hearing we have 17 distinguished delegates 
from the National 4-H Conference with us. Since its inception, 
4-H has been a model for bridging the gap between rural and 
urban communities, and since 1890 4-H has brought together 
youth from various backgrounds to help them better understand 
the ag industry, and the use of our natural resources. Through 
exposure to ag education, we can develop a culture of 
agricultural advocacy in today's youth, and grow this rural/
urban relationship.
    And for the past several years, youth participants in the 
National 4-H Conference have met with Members of Congress, and 
have made presentations to Federal agencies, and the 
Agriculture Committee staffs. Today the participants will 
initiate what will be an ongoing discussion regarding the 
challenges associated with food and fiber production, enhancing 
global food security, and how these challenges affect the 
future of agriculture. In addition to our 4-H delegates, we are 
honored to have Deputy Secretary of Agriculture Krysta Harden 
join us in offering her opening remarks.
    While the Committee is aware that the challenges that we 
face will not be resolved overnight, we believe it is vital to 
the future success of ag to continue this conversation today in 
a bipartisan way.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Good afternoon and welcome to our first hearing of the 
Biotechnology, Horticulture, and Research Subcommittee. As policymakers 
this is a great opportunity to hear from future leaders participating 
in the National 4-H Conference.
    Again, thank you all for being here with us today to discuss how 
the future of agriculture can be sustained through enhancing the rural/
urban coalition. Here in the Agriculture Committee we saw just how 
challenging it was to enact this most recent farm bill. If we do not 
mend the divide between rural and urban areas and foster a more 
widespread understanding of the food and fiber industries and the 
impact they have on everyday life, it is likely we may face the same 
challenges in enacting future farm bills.
    This Committee strives to promote policies that will protect and 
increase access to safe and affordable food, but has encountered 
opposition from organizations and individuals who do not see the need 
for continued Federal involvement. That is why strengthening the 
relationship between rural and urban communities is critical to 
addressing the long term challenges we face in production agriculture.
    Today's hearing is the first in a series that will highlight 
extension and research programs which support the enhancement of a 
rural/urban coalition. It is fitting that for our introductory hearing, 
we have 17 distinguished Delegates from the National 4-H Conference 
with us.
    Since its inception, 4-H has been a model for bridging the gap 
between rural and urban communities. Since 1890, 4-H has brought 
together youth from various backgrounds to help them better understand 
the agriculture industry and the use of natural resources. Through 
exposure to agriculture education, we can develop a culture of 
agriculture advocacy in today's youth and grow the rural/urban 
relationship.
    For the past several years, youth participants in the National 4-H 
Conference have met with Members of Congress, and made presentations to 
Federal agencies, and the Agriculture Committee staffs. Today, the 4-H 
participants will initiate what will be an ongoing discussion regarding 
the challenges associated with food and fiber production, enhancing 
global food security, and how these challenges affect the future of 
agriculture. In addition to our 4-H Delegates we are honored to have 
Deputy Secretary of Agriculture, Krysta Harden, join us to offer 
opening remarks.
    While the Committee is aware that the challenges we face will not 
be resolved overnight, we believe it is vital to the future success of 
agriculture to continue this conversation today in a bipartisan way.
    I now recognize the Ranking Member, Ms. DelBene for her opening 
remarks.

    The Chairman. And in that vein, I now recognize the Ranking 
Member, Ms. DelBene, for her opening remarks.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman, and good afternoon, 
everyone. This is the first Subcommittee hearing that we have 
held in this Congress, and it also means it is my first hearing 
as the Subcommittee Ranking Member. I want to thank Chairman 
Davis for his leadership of the Subcommittee, and want to 
especially thank him for reaching out very early in this 
Congress to discuss our mutual priorities, and how we can work 
together. I look forward to working with him on policies to 
examine advancements and issues in biotechnology, supporting 
critical research, and providing support and stability for our 
horticulture industry. So thank you for----
    The Chairman. Thank you.
    Ms. DelBene.--all your work. Today's hearing is an 
important one. I am pleased that so many young people are here 
today who are involved and committed to agriculture. We are 
often reminded that the average age of a farmer is somewhere in 
the 50s, but we don't always hear about the great number of 
youth who are involved. And in my district, and across the 
country, many farms are second, third and, fourth generation, 
so it is critical that we continue to make transitioning a farm 
from one family member to another as easy as possible, as well 
as support policies that help pave the way for the next 
generation of farmers.
    The folks in this committee room know all too well that 
there is a disconnect at times between areas that have 
agriculture and those that don't. We can all agree that passing 
the 2014 Farm Bill was no easy task, in part because many 
people around the country don't understand what goes into 
agriculture, or what makes up the programs that support a 
vibrant and healthy food supply. We need to do a better job of 
educating people on the importance of agriculture, and continue 
to build rural and urban coalitions so that people's 
understanding of food extends beyond what they see on the 
grocery store shelf.
    Great organizations like 4-H, which I participated in many 
years ago, I don't want to say how many, but many years ago, 
are an important part of bridging that divide, and I am looking 
forward to the presentations that we have here today. Again, 
thank you, Mr. Chairman, and I yield back.
    The Chairman. Thank you to the Ranking Member too. She has 
been a great partner, and somebody that I am looking forward to 
continuing to work with as we move through this Congress.
    And it is kind of a role reversal here. I am usually 
sitting in front of our next individual, our next Member who is 
going to offer an opening statement. So I am waiting for him to 
gavel me out, but he doesn't have it, I do. So, with that, I 
would like to recognize the Chairman of the full House 
Agriculture Committee, Mike Conaway, for an opening statement.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. I thank you, Mr. Chairman, I appreciate that. 
I just wanted to say two things. One, to express my great 
confidence in you and the Ranking Member, Ms. DelBene, that 
lead this Subcommittee to do some terrific work on behalf of 
the area, since you have jurisdiction over it. I have great 
confidence in both your leaderships, as you move forward. I 
appreciate you having this hearing today.
    That symbiotic relationship between urban America and rural 
America has to be discovered by urban America. They benefit 
from all the hard work that production agriculture does. They 
don't necessarily know that yet. They will operate in their own 
self-interest, and we have to explain to them that they enjoy 
the safest, most abundant, and cheapest food and fiber supply 
of any developed country in the world based on the hard work, 
sweat equity, risk-taking, and, yes, the safety net that the 
American taxpayer provides for production agriculture.
    So it is a great story to tell. We need to tell it often, 
and I appreciate you having this hearing today to start that 
process of telling that, because the next farm bill will be 
difficult to pass, and urban America has to know why it is 
important to them that we get the production safety net correct 
as we move forward, that we can keep American ag producers in 
business through the lean times.
    So I appreciate you having this hearing, and look forward 
to the testimony from the USDA, as well as our 17 future 
leaders in farm policy to have at the hearing. So, with that, I 
will yield back.
    The Chairman. Thank you, Chairman Conaway. The chair would 
request that other Members submit their opening statements for 
the record so the witnesses may begin their testimony, and to 
ensure that there is ample time for questions. The chair would 
also like to remind Members that they will be recognized for 
questioning in order of seniority for Members who were present 
at the start of the hearing. After that, Members will be 
recognized in the order of their arrival, and I appreciate the 
Members' understanding. Witnesses are reminded to limit their 
oral presentations to 5 minutes. All written statements will be 
included in the record.
    I would like to welcome our first witness to the table, Ms. 
Krysta Harden, Deputy Secretary of Agriculture at the United 
States Department of Agriculture, based here in Washington, but 
originally a Georgian, as we discussed earlier. So welcome to a 
fellow Atlanta Braves fan. Deputy Secretary Harden, please 
begin when you are ready.

           STATEMENT OF HON. KRYSTA L. HARDEN, DEPUTY
           SECRETARY, U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Ms. Harden. Thank you, Mr. Chairman, Ranking Member 
DelBene, Members of the Subcommittee, and the Chairman, if he 
leaves. I am pleased to have the opportunity to address you 
today on the topic of the future of American agriculture. I am 
looking forward to hearing the testimony of the 4-H'ers and how 
we at USDA can best serve this new generation of agriculture 
producers. This is a special day for me personally. I was a 
proud member of 4-H in my home State of Georgia. My sister and 
I showed steers and horses, were members of the horse judging 
team, and participated in leadership development activities. 
The principles of 4-H continue to shape my life today. I worked 
here for this Committee a long time ago as a staffer, but I 
have to tell you--pretty comfortable, so in many ways I am 
coming home.
    Under the leadership of Secretary Vilsack I have dedicated 
my efforts at USDA to supporting and aligning our resources to 
best serve the new generation of farmers and ranchers, and to 
create opportunities for tomorrow's leaders. Our work on new 
farmers is exciting, it is bipartisan, and inclusive of all the 
diversity in today's agriculture. New farmers are growing 
traditional crops and new varieties, organic produce, and 
heirloom products. They are part of row crop farms, dairies, 
and community support agriculture programs. They raise beef, 
pork, and poultry, and fish on operations of all sizes. And 
they are everywhere, from urban New Orleans, to rural Montana, 
and even in my home state.
    The 2014 Farm Bill laid excellent ground work. Thanks to 
your work on this Committee, USDA has a comprehensive suite of 
programs that can support new and beginning farmers and 
ranchers, including veterans, first generation farmers, those 
returning home to family farms, and even retirees seeking 
second careers. USDA has more flexible lending assistance for 
those who can't get it elsewhere. We have better risk 
management tools, ways to help support market access, 
opportunities to grow a farm business, and offer education, 
research, botanical and conservation assistance to help protect 
the land and natural resources.
    I wish I had time today to go through all the new farmer 
work that is underway, but here are just a few highlights, and 
more details are included in my written testimony. Since 2009, 
FSA has issued approximately 93,000 direct and guaranteed 
operating loans and farm ownership loans to beginning farmers 
and ranchers. This fiscal year, FSA has lent almost $6 million 
for approximately 2,000 youth for projects. Since 2009 FSA has 
facilitated 2,300 contracts to transition over 384,000 acres of 
expiring conservation reserve program land from retired or 
retiring land owners to beginning or socially disadvantaged 
producers for sustainable grazing or crop production. Since 
Fiscal Year 2013, the Department has also made more than 500 
investments in infrastructure in all parts of the supply chain 
for local foods. And from investments in previous farm bills, 
USDA has awarded more than $70 million through more than 146 
grants to develop education and training programs.
    And to help these producers navigate and find the 
assistance they need, USDA has launched a website, usda.gov/
newfarmers, which, for the first time, creates a single front 
door for USDA resources that can be used by new and beginning 
farmers. It is one of our most popular sites, which is a good 
indicator of the interest, and the need for information.
    We are working to make USDA more accessible and relevant in 
a changing landscape. Among other things, the President's two 
Fiscal Year 2016 budget requests seek to increase our outreach 
capacity for new and beginning farmers and ranchers. This 
investment would support $2 million for coordinators in key 
states to facilitate and guide beginning farmer outreach, 
provide support, to states to facilitate and guide beginning 
farmer--customer service. I lost my place, I am sorry--customer 
service training for USDA employees in the field--I bet these 
students will read better than I do--and enhance partnerships 
within regional, state, and local communities, including within 
the agriculture community, and the lending community, and 
others. An additional $2 million is for cooperative agreements 
that would leverage financial literacy, enhance technical 
assistance, and provide loan support to new and beginning 
farmers and ranchers.
    We are also reviewing our statistical tools, including the 
Census, to make sure that we are reflecting modern farm 
structures, including the roles that women and beginning 
farmers play in agriculture today. But even with these 
commitments, there is so much left to do, but the reason the 
effort and the investments are worth it is because of these 
young people in the room today, and the many others like them 
across the country.
    During my travels and duties as deputy, I have met so many 
smart, talented young leaders. They inspire me, and help me to 
know that our future is in good hands. For example, the White 
House Champions of Change, titled The Future of American 
Agriculture, we heard from a young member of FFA in Washington 
State who hoped to own his own orchard one day. He shared with 
us his passion for agriculture and his hard work ethic that he 
learned from his father, a farm worker.
    Last year I had the privilege to go to the Kennedy Space 
Center, accompanied by students from a Florida 4-H club, to see 
NASA and the Agricultural Research Service work to develop 
plants that could be grown in space. Together we learned about 
biology, and chemistry, and physics, and their applications in 
agriculture. There is a wide frontier for agriculture and 
science, and it is amazing to see that these kids can be 
inspired, and wanting to be a part of it.
    In Virginia last year I was honored to be a guest on a 
family farm where there were three generations side by side. 
Grandfather and father had done an excellent farming operation, 
including corn and soybeans, and mom had a pick your own pecan 
grove. And one of the sons wanted to come home, but he knew he 
had to add more value to support his family, so he incorporated 
advanced technologies on their operation, creating new 
efficiencies, and added raising show pigs.
    I am convinced that our industry will be stronger, and our 
country better, because of these young people. This next 
generation is so impressive. Now they are more likely to use 
apps than offices, and texts than make a phone call, so we will 
have to work with them in a new way. But this is the challenge 
that we at USDA are more than ready to meet. I commend the 
Committee for holding this hearing, for providing the 
opportunity for 4-H'ers to share their stories, their ideas, 
and their dreams. You are helping to make them more aware and 
engaged citizens. I hope you will continue to find ways to 
include their voice in future sessions. And I also thank you 
for letting me kick off this hearing. I know we will all learn 
from these student witnesses, and we will do our jobs better 
because of them. Thank you.
    [The prepared statement of Ms. Harden follows:]

  Prepared Statement of Hon. Krysta L. Harden, Deputy Secretary, U.S. 
              Department of Agriculture, Washington, D.C.
    Chairman Davis, Ranking Member DelBene, and Members of the 
Subcommittee, I am pleased to have the opportunity to address you today 
on the topic of the future of American farming and ranching.
    I am looking forward to hearing the testimony of my fellow 
witnesses and learning from their enthusiasm and experiences how we at 
USDA can best serve this new generation of agricultural producers.
    Under the leadership of Secretary Vilsack, I have dedicated my 
efforts at USDA to supporting and aligning our resources to best serve 
the new generation of farmers and ranchers and to create opportunities 
for tomorrow's leaders. USDA has worked to update the way we provide 
customer service for new and beginning farmers; implemented the farm 
bill quickly and effectively; worked to update our programs to reflect 
the new and modern farm needs; updated our budget priorities to reflect 
priorities for the next generation; and, built new partnership and 
mentorship opportunities that are helping USDA connect with new farmers 
and the next generation more effectively.
New Farmers
    America's farmers and ranchers have created an impressive legacy of 
stewardship, productivity, and innovation. But as the average age of 
farmers and ranchers in America continues to rise, the question of how 
we build our bench in agriculture becomes ever more important. As you 
can see here in this room, the work of supporting and engaging the next 
generation is already well underway.
    New farmers are as diverse as American agriculture itself. They are 
growing traditional crops and new varieties, organic produce and 
heirloom products. They are part of row-crop farms--employing cutting-
edge technology and equipment--and community supported agriculture 
programs--delivering fresh products directly to their neighbors. They 
are raising beef, pork, dairy cattle, poultry, and fish on operations 
of every size. They are everywhere--from urban New Orleans to rural 
Montana.
USDA Results for New Farmers
    Thanks to Congress' support through the 2014 Farm Bill, USDA has a 
comprehensive suite of programs that can support new and beginning 
farmers and ranchers, including veterans, first generation farmers, new 
generations returning home to family farms, and retirees seeking second 
careers.
    To help these producers navigate and find the assistance they need, 
USDA has launched www.usda.gov/newfarmers, which for the first time a 
creates single front door for all USDA resources that can be used by a 
new and beginning farmer and is indexed by customer need. USDA offers 
lending assistance, risk management tools, market building 
opportunities, opportunities to grow a farm business, education, 
research, technical assistance, and conservation assistance to help 
protect the land and natural resources.
    The Farm Service Agency is often ``the lender of first 
opportunity'' for many new and beginning producers. Since 2009, FSA has 
issued approximately 93,000 direct and guaranteed farm operating and 
farm ownership loans to beginning farmers and ranchers. Further, since 
the microloan program began in 2013, USDA has issued 12,000 
microloans--70 percent of which have gone to beginning farmers.
    Of particular interest to this audience, the Farm Service Agency 
makes available Youth Loans of up to $5,000 to eligible individual 
youths, ages 10 to 20, to finance income producing and agriculturally 
related projects. The project must be modest in size, educational, and 
initiated and carried out by youths participating in a 4-H Club, FFA, 
or similar organization. The 2014 Farm Bill removed the prior rural 
residency requirement for youth loans and allows FSA to extend youth 
loan assistance to youth residing in suburban and urban areas to 
finance eligible agriculturally-related projects. This fiscal year, FSA 
lent almost $6 million to approximately 2,000 youth for projects.
    USDA also works to help support access to land for new farmers. 
Since 2009, FSA has facilitated 2,305 contracts to transition over 
384,000 acres of expiring conservation reserve program land from 
retired or retiring landowners to beginning or socially disadvantaged 
producers for sustainable grazing or crop production.
    The 2014 Farm Bill provided USDA additional tools and authorities 
to help new and beginning farmers to manage the risks inherent in 
farming and ranching. Beginning farmers are now exempt from 
administrative fees associated with catastrophic and additional 
coverage policies; qualify for additional premium support to reduce the 
cost of insurance; and increase the yield adjustment received for 
actual production history in low yielding years. For new, beginning, 
limited resource, or targeted under-served producers, administrative 
fees for the Noninsured Crop Disaster Assistance Program (NAP) are also 
waived, and there is a 50 percent premium reduction on higher levels of 
coverage.
    Since FY 2013, the Department has also made more than 500 
investments in infrastructure in all parts of the supply chain for 
local foods, which are often an entry point for new and beginning 
farmers. These investments include scale-appropriate processing 
facilities, farmers markets, food hubs, and distribution networks. 
Farmers markets have increased 180 percent from 2006 and 2014, and the 
national Farmers Market Directory now lists over 8,200 farmers markets 
nationwide. About twenty percent of all Value Added Producer Grants 
have gone to beginning farmers and ranchers to better leverage their 
operations and grow opportunities.
    USDA also provides training, education, and outreach to the new 
generation of producers through the Beginning Farmer and Rancher 
Development Program. From investments in the previous farm bill, USDA 
has awarded more than $70 million through more than 146 grants to 
develop education and training programs; the 2014 Farm Bill increased 
our commitments in this area.
    USDA has also focused on building new and fruitful partnerships, 
both within government and with producer, land, and education/outreach 
groups. Our work has also focused on building awareness of the issue of 
new and beginning farmers broadly.
    In 2014, USDA and the White House hosted a Champions of Change 
event, ``Future of American Agriculture.'' We heard from farmers and 
ranchers from across the country--with an audience who included land 
grant universities, producer organizations, land conservation groups, 
youth development organizations and students, and industry 
representatives. We saw examples of urban agriculture, peri-urban 
agriculture, traditional production agriculture, and new and emergent 
technologies being applied in non-traditional farming models. Together, 
these bright individuals shared their experiences, challenges, 
struggles, and hopes for the future, creating a greater awareness of 
new and beginning farmers nationwide.
    In February 2015, USDA announced the Women in Agriculture Mentoring 
Network. The network is a way to connect, share stories, and create 
opportunities for women in agriculture to share their advice with one 
another. The goal is to promote the image, role, and leadership of 
women not only on the farm, but in leading youth organizations, in 
conducting cutting edge research at universities across the country, 
and in the boardrooms of global corporations.
    Finally, USDA is working to further enhance our resources to 
connect with this next generation in a more regionalized and tailored 
way. The President's FY 2016 budget request seeks to increase FSA 
outreach capacity for new and beginning farmers and ranchers as part. 
This investment would support $2 million for new farmer outreach 
coordinators in Strikeforce states to facilitate and guide beginning 
farmer outreach, provide support and cross-cutting customer service 
training for USDA employees in the field, and enhance partnerships 
within regional, state, and local communities, including with the 
agricultural community, the lending community, and others. An 
additional $2 million is for cooperative agreements that would be 
entered into with private organizations to leverage financial literacy, 
enhance technical assistance, and provide loan support to new and 
beginning farmers and ranchers, including leveraging tribal resources 
in Indian Country, and leveraging urban organizations to help urban 
beginning farmers.
Youth Efforts
    I am so inspired by these bright young students' energy, 
enthusiasm, and passion for leadership, agriculture, and their 
communities. At USDA, a major part of our focus on new and beginning 
farmers is on youth and how to best connect with and create early 
opportunities for the next generation.
    4-H, a key vehicle for connecting youth with opportunity, has been 
a leading USDA program in this work for more than a century. It is the 
largest positive youth development program in the United States and 
works to connect youth with opportunities to learn, practice, and apply 
career readiness skills. 4-H currently reaches six million young people 
across the country and has been used as a youth agricultural education 
model in over 50 countries.
    Implemented through the land-grant university system, 4-H is the 
youth education program of USDA's Cooperative Extension and receives 
the majority of its Federal support through Smith-Lever funding. Early 
advocates for youth development programming realized that a key part of 
the strength and innovation of agriculture and rural America lay with 
those who were to inherit it. Today, 4-H has grown to encompass the 
full spectrum of opportunities, not only within agriculture and rural 
America, but within personal growth, leadership training, and STEM 
applications.
    I had the privilege of addressing the National 4-H Congress this 
year, and as I stated there--the lessons that I learned as a proud 
member of 4-H in my youth--to lend my head to clearer thinking, my 
heart to greater loyalty, my hands to larger service, and my health to 
better living--have all informed and guided my work as a professional, 
a leader, and a public servant.
    These principles inform my work today as the Deputy Secretary of 
Agriculture, as we work to chart a strong and stable path for the next 
generation of American agriculture.
USDA and Youth Development: Building Results Together
    Through 4-H and partner educational youth groups, including 
National FFA Organization (FFA), USDA has worked to create new paths 
into careers in agriculture and to celebrate diversity in the 
agriculture. At the White House Champions of Change we heard from a 
young member of FFA who hoped to own his own orchard one day. He shared 
with us the importance of youth agricultural education programs in his 
development and leadership training, and his passion for following in 
the footsteps of his father, who as a farm worker had taught his son 
from an early age a passion for the land and a strong work ethic. At 
USDA, we are hard at work to honor the passion that new entrepreneurs 
can bring to farm businesses and to create new pathways into 
agriculture.
    In this work, USDA has engaged a broad coalition partners, 
including NASA, to discuss and share with youth the abundant 
opportunities in agriculture, including the exciting connection between 
disciplines like science, engineering and agriculture. A great example 
of this type of partnership was a trip that we took late last year to 
the Kennedy Space Center, accompanied by students from a Florida 4-H 
club, to see NASA and the Agricultural Research Service's work to 
develop plants that can be grown in space. Together, we learned about 
biology, chemistry, physics, and their applications in agriculture. 
There is a wide frontier for agriculture and science, and together, we 
are working to engage the scientific communities with those who are 
passionate about the land and our food supply.
    We are working to make USDA more accessible and relevant in a 
changing landscape. Last year, during the National 4-H Conference, 
passionate students spoke with representatives from across the 
Department, including myself, about the importance of communicating 
with the next generation in new ways--connecting with those who are 
more used to apps than offices in a way that was meaningful to them. As 
I speak to you now, another group of 4-H'ers are again preparing to 
meet with USDA staff and administrators to present their newest ideas 
for solving today's critical societal issues. In fact, there are 4-H 
youth leaders presenting briefings to 14 different Federal audiences 
today--including Health and Human Services, Department of Defense, 
Department of Transportation, Department of Energy, Department of 
Education, NASA, Smithsonian, and Housing and Urban Development.
    I have met so many new beginning farmers and ranchers this year--
many who are 4-H, FFA, and other youth development organization 
alumni--who are looking for strategies to connect with increasingly 
urban communities as neighbors, to create profitability and opportunity 
in urban and peri-urban spaces, to explore strategies to meet the need 
to expand profitability without being able to add more land, and to 
meet the challenges of connecting with customers in changing markets. 
All of these discussions create new opportunities--opportunities to 
make our programs more flexible and relevant, opportunities to share 
agriculture with those who are generations removed from the farm, 
opportunities to be a part of our communities in new ways, and 
opportunities to build new constituencies for American agriculture.
Conclusion
    In conclusion, I would like to thank you for this opportunity to 
share just a few of the ways that we have been supporting these bright 
young people. The future of agriculture is exciting, diverse, and full 
of opportunity, and we at USDA are eager for the opportunity to serve 
and work alongside the next generation as we have alongside those that 
have come before.

    The Chairman. Thank you very much for your opening 
statement. Thank you for being here, Secretary. And Members are 
advised that a series of votes have been called, and I 
anticipate this series of votes will last probably at least 
another 15 minutes. I would ask that Members return to the 
hearing as quickly as possible from voting. This hearing will 
stand in recess, subject to the call of the chair.
    [Recess.]
    The Chairman. First Chairman mistake, turn the microphone 
on. I told you it was the first hearing, so we are bound to 
make mistakes. I would like to welcome the second panel, the 
participants in the National 4-H Conference. And before we get 
started with the 4-H panel, I want to extend a special welcome 
to my constituent, Jill Parrent of Normal, Illinois. Jill has 
had to put up with me twice now in multiple weeks as I visited 
her school at Normal West Community High School in Normal, 
Illinois just a few weeks ago. So Jill, thank you for being 
here. Thank you for allowing me the opportunity to serve you in 
central Illinois.
    And Jill is a 10 year member of 4-H, and has received the 
4-H Premiere Leadership Citizenship Professionalism Award. And 
yes, Jim, out of my district. Yes. Not only is she a future 
leader, she is leading in our community right in central 
Illinois right now. Thanks for being here today, Jill.
    I would like each of you to introduce yourself, tell us 
where you are from, and how long you have been in 4-H. We are 
ready to hear your presentation.

            STATEMENT OF HARLEY ROGERS, HAMILTON, TX

    Ms. Rogers. Hi, I am Harley Rogers. I am a 10 year 4-H'er 
from Hamilton, Texas. I have grown up on a ranch my whole life, 
and I have been showing cattle since I was 7 years old.
    The beef cattle industry is something that I am very 
passionate about. A few years ago my siblings and I decided 
that we wanted to start a grass-fed beef business to meet 
consumer demand. Grass-fed beef is something that is very 
popular right now in the urban area, and I started marketing 
the beef in farm and table markets in the Austin and Dallas 
area. I was constantly being asked questions about the beef, 
and the hormones, and the additives that are added into it. And 
one lady named Constance was very concerned about my beef, so I 
offered her to come and view my operation in Hamilton, Texas. 
She drove to Hamilton, Texas in her little Mercedes-Benz. I 
took her to my ranch, and showed her all my cattle and my 
everyday routine. She was so impressed, and as a result, I 
gained this friendship. She would come to my stock shows, and 
follow me around, and I would show her what we do. She would 
text me all the time with questions.
    Constance told her neighbors in Fort Worth about me, and 
this proved to me that I have gained the trust of the consumer, 
and that is something that is very important to me, is bridging 
the gap between the producer and the consumer. I realize that 
this is just a small step in building the bridge between the 
consumer and producer, while getting the word about where the 
beef comes from, but I believe that it is my stepping stone 
into the future of agriculture.
    Thank you, and now a delegate from Delaware will speak.

            STATEMENT OF ALEXANDRA SWAN, NEWARK, DE

    Ms. Swan. Hi, my name is Alex Swan. I am from Newark, 
Delaware. I have been in 4-H for 9 years now. Newark is located 
in New Castle County, which is very limited in farm space. And 
with the limit in farm space, it is very hard to have farms and 
agriculture in New Castle. I have had the amazing opportunity 
to raise market lambs and breed lambs for 6 years now, but due 
to space left on my small family farm, I do not have the 
ability to grow my flock by much more.
    Although I am fortunate to have a farm and be a part of 
agriculture in Delaware, there are many people in Delaware who 
do not get that same experience. Many people in Delaware 
couldn't even tell you anything about agriculture, or where 
their food came from. So New Castle County is teaming up with a 
local creamery called Woodside Creamery in having a day on the 
farm. It is an opportunity for people in New Castle County to 
just come and see what farmers do, what it is like to have a 
dairy farm, and not only a dairy farm. We are inviting other 
businesses in agriculture to come and speak to the people, and 
teach them, and inform them of where their food comes from, how 
it is produced, and other amazing things that agriculture has 
to offer for us.
    And that is our goal in New Castle County, is to try to 
teach the people in the city that agriculture isn't just stinky 
farm animals, and that it is so much more, and that it is a 
necessity for life.
    Now our delegate from California will speak.

           STATEMENT OF GABRIELLA GERMANN, CERES, CA

    Ms. Germann. My name is Gabriella Germann. I am from Ceres, 
California. I have been a 4-H member for 9 years, and I have 
loved every moment of it. I have lived on a dairy farm my 
grandfather started in central California for my whole life. 
Being immersed in the agriculture industry through the dairy 
business has developed in me a passion for the industry, and 
for its promotion. Even though I live in a primarily 
agricultural community, I was still stunned by the lack of 
awareness among my peers, in youth and teens.
    My family, since then, has hosted school visits to our 
dairy for elementary school children, and I have presented at a 
local elementary school career days, speaking about the dairy 
industry, and agriculture as a whole. Through this, I have 
learned the importance of informing people about agriculture 
while they are young so as to cultivate early understanding and 
support, bridging the gap between consumers and producers.
    Now a delegate from Illinois will speak.

            STATEMENT OF JILLIAN PARRENT, NORMAL, IL

    Ms. Parrent. Thank you very much for the introduction, Mr. 
Chairman. We are all very excited to be here. My name is Jill 
Parrent, and I am from Normal, Illinois. I am a 10 year 4-H 
member, and I have been involved 4-H throughout my entire life. 
My grandparents, mom, aunts, uncles, and cousins have all been 
involved with 4-H for three generations now, so 4-H has always 
been a family affair.
    I view agriculture through several lenses, as I live in 
town, yet my mother's family owns and operates a ranch and a 
farm that has been in our family for four generations. My 
immediate family is also very involved with a local agri-
tainment pumpkin farm.
    The pumpkin farm is a fall destination for much of our 
urban population. It focuses on teaching guests about 
agriculture through activities and entertainment, while working 
with family memories in the fall. For the 7 weeks we are open, 
over 3,600--36,000, excuse me, patrons come to our farm. We 
expose them on how plants are grown, and then--the animals, 
their behaviors, and the many jobs a farmer has to do, and must 
do. And nearly every activity available is connected to 
agriculture in some way, so we are bridging that gap.
    School age students come to our farm to experience a taste 
of agriculture they wouldn't have had the opportunity to 
experience otherwise. In our 2014 season we had the opportunity 
to teach over 5,000 students about agriculture using agri-
tainment. We teach them many aspects of agriculture. So, for 
example, we introduce them to eight different field crops that 
are often grown in Illinois. They get to see the plants, feel 
the plants, and they also get to see where they come from. The 
students get to pick their own pumpkin, learning how the 
pumpkin grows, from the pollination to the beekeeping to even 
how they are grown. They also learn about the many bushels of 
corn produced in Illinois specifically, and touch and feel the 
ear of corn. And some of our favorite sports drinks, and even 
fireworks, are made using corn, and almost every product on the 
McDonald's menu uses corn.
    I have a passion and a desire to teach the public about 
agriculture through agri-tainment that excites them, while 
keeping them interested in the lessons that we teach them. If I 
have the opportunity to impact 20 kids, that is 20 kids that 
know more about agriculture than they would have without us. 
Thank you.
    And now a delegate from Indiana will speak.

          STATEMENT OF SHELBY NIERMAN, BROWNSTOWN, IN

    Ms. Nierman. Hi, my name is Shelby Nierman. I have grown up 
on a small dairy farm in Brownstown, Indiana, where I have been 
involved in the 4-H Program for 10 years. Living in a rural 
area, I am surrounded by agriculture. My parents and 
grandparents have instilled in me the value of 4-H, and because 
of that, I have had numerous opportunities to meet people from 
across the United States.
    A few years ago I was given the opportunity to be a part of 
the first Indiana 4-H Dairy Youth Academy. This experience 
brought together 14 youths from across Indiana with an interest 
in the agriculture industry. We were able to visit farms across 
Indiana, Michigan, Wisconsin, New York, and even Canada. 
Through this experience, even with an agriculture background, I 
was surprised with the different ways that farmers manage their 
operations.
    If you ask a farmer what he would do if he wasn't in this 
industry, he will more than likely say he hasn't thought of 
doing anything else. It is important to understand that farmers 
are passionate about their jobs in the agriculture industry. 
This select group would not have incentive to complete the hard 
work of their job without passion and dedication.
    The opportunities I have had allow me to not only share my 
story, but accept the diverse backgrounds of others. Programs 
such as 4-H are essential in bridging the gap between rural and 
urban areas. The 4-H Program brings together youth with 
individual experiences, passions, and beliefs to bridge the gap 
between rural and urban perspectives of agriculture. Producers 
and consumers can find a common interest through the 4-H 
Program. We have the opportunity to hear opinions of consumers 
through 4-H, and, because of this, we can improve, innovate, 
and learn from each other.
    Now a delegate from Rhode Island will speak.

         STATEMENT OF KAILEY FOSTER, SOUTH KINGSTON, RI

    Ms. Foster. Hi, my name is Kailey Foster, and I am from 
Rhode Island. I have been involved in 4-H for about 6 years 
now. Unlike most of my fellow delegates, I did not grow up with 
too much agriculture in my life. Sure, my dad is a milk truck 
driver, and his family members are all farmers, but other than 
that, I have no connection with that way of life. My mom grew 
up in a city, where her idea of a major farm was an apple 
orchard. On the other hand, my dad grew up on a farm, and was 
very involved with 4-H and FFA. With that being said, I was 
always preached to by my mom that farms are gross, dirty, and 
smelly.
    It wasn't until I was 10 years old that I caught my first 
glimpse of what 4-H was. My dad took me to a local fair to 
watch my very first dairy show. I remember how excited my dad 
was to show me this part of his childhood, and him telling me 
that if this was something I wanted to do, I could. Watching my 
first show changed my look on agriculture. Now the tough part 
would be to get my mom to have a change of heart like I did.
    My mom eventually gave in and let me join, but she wasn't 
100 percent on board with the idea, so that year I joined 4-H 
and worked hard with my dad to prepare my animal. When that 
fair season come--when fair season comes along, my mom did come 
as a support, but kept her distance from the cows. She liked to 
spend her time at the fluffy rabbits cages. When she found out 
that these fluffy rabbits were also a part of 4-H, she took 
this as her way to accept 4-H better. Since then, we have had 
many rabbits. At one point, we were even caring for 50.
    Even though we have had many rabbits, I have never actually 
had a cow of my own. As the years have gone by, I have gotten 
more and more involved with 4-H and with dairy cows, and my 
sisters have also joined my club with dairy projects. This made 
it so my mom learned more about agriculture, and she started to 
accept this way of life, and 6 years later, I am actually 
getting a cow of my own. My experience of coming from a family 
with both urban and rural backgrounds has given me the 
opportunity to be my own bridge within my family.
    Now a delegate from Connecticut will speak.

           STATEMENT OF DANIELLE BRAZEAU, STORRS, CT

    Ms. Brazeau. Hello. My name is Danielle Brazeau, and I am 
from Storrs, Connecticut. This is my 6th year in 4-H. Growing 
up in a suburban area, I have developed an appreciation for 
agriculture and farmers through 4-H. My 4-H animal projects 
have included horses, goats, rabbits, and chickens. I have 
learned that it doesn't matter how you feel, or what the 
weather is like, the animals still need to be fed, watered, and 
cared for. This is something I feel many people in my community 
do not understand, that the animals do not just sit there and 
take care of themselves. Raising livestock is a huge 
commitment, and a lot of hard work. I was given three chickens 
by somebody in my local community that loved the idea of having 
fresh eggs laid by their own backyard chickens. But once they 
got the chickens, they realized that they weren't up for the 
work involved.
    I, and--along with many others involved with animal 
husbandry have a great passion for what we do, and in my local 
4-H and FFA, we attend public events to educate the public 
about our agricultural related projects, and all the hard work 
that goes into them. We want them to understand not only where 
their food comes from, but how it is produced.
    It is also important to educate the youth about 
agriculture, because they are the next generation of consumers. 
If they know more about where their food comes from, and how it 
is produced, it will be the next step in helping to bridge the 
gap between the consumer and the producer.
    Thank you. Now a delegate from California will speak.

          STATEMENT OF COLTON SEARCY, PORTERVILLE, CA

    Mr. Searcy. Hi, my name is Colton Searcy, and this is my 
10th year in 4-H, and I live in Porterville, California. I live 
in the largest agricultural producing county in the nation, but 
I have no agriculture background. 4-H and school field trips 
have taught me everything I know about agriculture.
    Being in the county that I live in, the drought has 
affected the way I live. Four years of below average rainfall 
has caused the wells on the east side of Porterville to 
completely dry out. Portable showers, portable toilets, and 
bottled water are a necessity.
    Governor Brown has just imposed a 25 percent restriction on 
water throughout the state, but how are you supposed to protect 
water if we don't have any? If we build water infrastructure 
and contain the water, we will have, we will revive the local 
economy from all the--crops.
    Even with the water restrictions, we would need 11 trillion 
gallons of water. That equates to the amount of water Niagara 
Falls puts out in about 150 days. If we work together with 
agriculture and urban areas, we can make the best of the 
drought. Thank you.
    Now a delegate from Minnesota will speak.

           STATEMENT OF HANNAH HASBARGEN, WHEATON, MN

    Ms. Hasbargen. Good afternoon. My name is Hannah Hasbargen, 
and I live on a family operated farm in the Red River Valley of 
Minnesota. When I was 6 years old, I began to show livestock in 
4-H, and this is my 13th year being an active 4-H'er. Today I 
would like to talk about the future of agriculture, and I will 
start by comparing the United States to other countries around 
the world.
    By 2050 the world's population is projected to reach 9.1 
billion, which is 34 percent higher than it is today. As you 
can see in this table, the percentage of people who farm in 
Africa is 65 percent, whereas in the United States, only one 
percent of the population is directly involved in the 
production of agriculture. This is very interesting when 
looking at the next comparison, which is the cost of food as a 
percentage of disposable income. Consumers in the United States 
spend less than ten percent of their disposable income on food, 
while their African counterparts spend approximately 70 
percent.
    We face a number of challenges internationally as 
producers, including sustaining global food security. However, 
there are also domestic challenges. Some of the major issues 
include consumer perceptions of biotechnology, food safety and 
labeling, and pesticide use. When you take these technological 
advances and innovations away from the farmers, you decrease 
production levels, while increasing prices. We need to remember 
that, as agriculture producers, we are working to feed the 
masses, and further improve agriculture practices.
    U.S. ethanol production has increased rapidly since 2006. 
The expansion in the domestic ethanol production has been one 
of the main drivers of the corn market. During a super-cycle of 
agriculture, corn reached a high of $8 per bushel in the Red 
River Valley, and soybeans soared to $18.
    As farmers, we took our profits from the high prices of the 
cycle and invested them by pattern tiling 50 percent of our 
land, updating our crop drying systems to add efficiency and 
reduce cost. We also use GPS and precision guidance technology 
on all of our tillage, spray, planting, and harvesting 
equipment to reduce costs by eliminating overlap. Our operation 
has integrated this into field mapping with yield and fertility 
that allows us to variable rate seed and fertilize, which saves 
up to 25 percent on costs. These innovations have been made by 
the majority of farmers in our area, and should leave us in 
good condition to weather the period of low prices that we now 
find ourselves in due to the downturn of the cycle.
    The super-cycle has shifted paradigms of agriculture and 
rural America, creating challenges, chaos, and opportunity, 
which will be influenced by the policies made in this room. So 
will we face a situation like other developing countries, where 
a higher percentage of our disposable income is used to feed 
the nation, or will we allow technological advances to continue 
to infiltrate the agriculture industry?
    Now a delegate from Wyoming will speak.

              STATEMENT OF BROOK WEIBEL, BURNS, WY

    Ms. Weibel. Hi, my name is Brook Weibel. I am from Burns, 
Wyoming, which is about 25, 30 miles east of Cheyenne. I have 
been an active 4-H member for 10 years now, and I have been in 
FFA for 5 years. I do a variety of projects in 4-H. For 
example, I have done shooting sports, photography, as well as 
other static exhibits.
    My main project, however, is pigs. I have shown market pigs 
for about 8 years. My parents both grew up on farms and 
ranches, and they both bred their own pigs, and so when we 
joined 4-H, my sister and I, they got us pigs to see if it was 
something we wanted to pursue even further, and they were 
right. My sister and I loved having and showing pigs.
    We have shown pigs every year, but we haven't really done 
much else with them. This year, however, we talked about trying 
to breed them. My parents both bred their pigs when they were 
in 4-H, like I said previously, and then a couple years ago my 
sister had a really nice gilt, and we decided that we were 
going to breed her. But, unfortunately, the gilt had gotten 
sick, and so we had to put her down. We haven't really talked 
about it since then until this year. We have a lot of things to 
think about when we are trying to decide this, such as whether 
or not we will AI the pigs, or we will find a boar, and take 
that route.
    We live on a 40 acre farm, but we don't really have any 
crops. We just mainly have animals, so we can't really grow our 
own feed like other farmers do, so it will be expensive to buy 
feed and other equipment for this project. But the other 
obstacle we are trying to work through is that we really don't 
have any facilities on our property to efficiently do this. 
This being said, in the Burns community, there are several pig 
breeders, and so we have the option of maybe using some of 
their facilities, or having them help us out in our first 
couple of years.
    The biggest obstacle, however, is having someone available 
to feed the pigs all the time, because my family and I are very 
active, and we are gone quite a bit. But though there are many 
obstacles, I know my family can overcome them, and it makes me 
excited to even think about getting up in the morning and 
hanging out with the piglets.
    My future in agriculture is breeding pigs and having more 
facilities at my house to be able to do it on my own. Thank 
you.
    Now a delegate from Colorado will speak.

            STATEMENT OF WADE HOFMEISTER, BRUSH, CO

    Mr. Hofmeister. Hello. My name is Wade Hofmeister, and I am 
from a small family-owned farm from Colorado. Our main crop 
that we grow is alfalfa that we use to feed our animals. Using 
this method, we have reduced the cost that we would spend on 
buying hay from auctions, or other sources. This method has 
also helped in making our feed processes faster.
    The problem that we have faced, though, with growing 
alfalfa is the infestation of insects. This is a problem 
because the quality and quantity of the crops is diminished. 
Also, it needs a sufficient amount of water for the plant to 
derive from. It also must be plowed, ideally, every 5 years 
because it does not provide as well as it ages. Growing this 
crop has helped my family and I through tough times, and it has 
provided food for my animals in 4-H.
    Now a delegate from Nevada will speak.

         STATEMENT OF GARRETT TOMERA, SPRING CREEK, NV

    Mr. Tomera. Hi, my name is Garrett Tomera, and I am from 
Nevada. I have been in 4-H for 10 years now, and I am also a 
6th generation rancher from northern Nevada. My family has been 
ranching for more than 150 years.
    Over the past years, my family has noticed that the 
relationship between the producer and the consumer has been 
growing apart. My mom, Kristi Tomera, and I started researching 
how to connect with the consumer. We found out that in one of 
the southern states they have an app called the meet your 
farmer in the grocery store. This app allows them to virtually 
meet through a video that tells them about how the food got 
from the farm to the store.
    One way we educate our community in our county is that we 
bring ag in the classroom to the middle school. We bring 
livestock from all over the county and tell the kids about the 
animal's byproducts, and how they are made.
    Now a delegate from Idaho will speak.

           STATEMENT OF TYLER BASSET, ST. CHARLES, ID

    Mr. Basset. Hi, my name is Tyler Basset, from Bear Lake, 
Idaho. I have been in 4-H for 6 years and counting. In my 
little school, students have the option of taking ag classes. A 
decent amount of students take these classes, but more for a 
free period than to actually learn and better themselves. It is 
not that my teacher doesn't teach them, because he does, and I 
believe that he does a really good job at it. It is that my 
generation has no interest in agriculture, and does not care. 
They have no real respect for it. I have this image in my mind 
that if this continues, my generation's level of using and 
understanding agriculture will drop dramatically. This could, 
in turn, change the outcome of students that go into the field 
of agriculture to produce the things we need for everyday life.
    I believe that if we include more activities involving 
outdoor agriculture opportunities that students that might not 
have an interest in agriculture will find that it is an 
extremely interesting and useful tool. Students will then 
respect it more, and will want it in their daily lives. If more 
students find interest in agriculture, then they may go into it 
as a career, which will in turn increase production of required 
products. I find it very important that this happens, and that 
agriculture is not forgotten about in my, or any generation.
    Now a delegate from Missouri will speak.

            STATEMENT OF DARBY SCHMIDT, DEFIANCE, MO

    Ms. Schmidt. Hello, my name is Darby Schmidt, and I am from 
Defiance, Missouri. I have been a 4-H member for 10 years. I 
grew up in a small town outside of St. Louis, Missouri, but I 
have attended a large suburban school my entire life. There is 
a decreasing number of farms in my community, and little to no 
students know about agriculture, and there is no agriculture 
courses available at my school. As a 4-H project I started 
raising and showing Boer goats.
    4-H was my gateway to agriculture. I have had many 
opportunities to see firsthand the public's misconception of 
today's agriculture. Most of my classmates have no idea where 
their food comes from, and have a lack of knowledge of today's 
modern agriculture.
    When my friends come over to my house, they are very 
interested to learn about how their food is raised. They don't 
understand how livestock is fed and watered every day. They 
also don't understand how, when livestock is sick, that 
medication is required.
    I believe that it is important to teach the importance of 
modern agriculture in today's schools. To improve the future of 
agriculture, we must educate our youth consumers. Everyone 
eats, so it is important for everyone to learn about where 
their food comes from.
    Through advocating in my school, and being a member of the 
4-H Program, I decided to pursue a degree in agribusiness and 
be a part of the future of agriculture.
    Now a delegate from Maine will speak.

            STATEMENT OF SHAYNEN SCHOFIELD, KNOX, ME

    Mr. Schofield. Hello. My name is Shaynen Schofield. I am 
from Waldo County, Maine. I do not personally live on a farm, 
but agriculture is a huge part of my life. I have been in 4-H 
for 10 years, and in this time I have shown sheep, goats, pigs, 
and I currently show dairy cows. My school is divided into two 
groups, kids in an agriculture background, and the kids with 
little to no agriculture background. I personally have an 
agriculture background. I spend most of my summers showing cows 
at fairs, and at my uncle's farm taking care of the animals.
    A lot of the kids at my school with little to no 
agriculture background don't understand the amount of effort 
that is put into taking care of the animals. Waking up early to 
get chores done before breakfast, and we start chores around 
3:00 so we can get done at a decent hour.
    I believe if we had a special day for agriculture 
awareness, where people could go to a farm near them and see 
where their food comes from, and how the food is raised, and 
the amount of effort that is put into raising and taking care 
of the animals would really help people to respect farmers and 
ranchers more.
    Now a delegate from Colorado will speak.

        STATEMENT OF JENNIFER GOLBUFF, FORT COLLINS, CO

    Ms. Golbuff. Hello, my name is Jenni Golbuff. I am 17 years 
old, and I have been a 4-H member for just about 13 years now. 
I am a supporter of the biotech crops, mainly because these 
crops can help protect our resources. These modified crops 
actually use less fuel, help water efficiency, reduce spray 
uses, and give farmers better harvest per acre.
    When I was a little girl, a large F2/F3 tornado ripped 
through my little farm town in Minnesota. A lot of buildings 
were destroyed, but what was worse was the harvest that fall. 
My little town mainly harvested soybeans and corn, and most of 
our harvests were destroyed in that May Day tornado.
    When I found out about the biotech crops a few years later, 
I was amazed. Just imagine, traits and such being added to corn 
and other crops so that they could have strong stalks, and not 
be as easily destroyed in storms? Better harvests, and less 
resources to use to help feed the future generations? That is 
what we need to be thinking about right now, not just for the 
present farmers, but for the future farmers, and the future 
generations, like my fellow delegates and myself, who are the 
next generation of farmers and consumers.
    Thank you. Now a delegate from Texas will speak.

             STATEMENT OF MERAH WINTERS, BELTON, TX

    Ms. Winters. Hello. Okay. Sorry for that. Hello, my name is 
Merah Winters. Located in central Texas, I live in a large 
urban and rural community. My 4-H involvement spans 9 years so 
far. Within that urban setting, it amazes me that the lack of 
awareness many citizens in the community have. When asked, 
where does your food come from, many consumers will respond the 
grocery store, or I don't know. 4-H is a program that has 
allowed me to help reverse this loss of knowledge, and teach 
some of the essential skills learned through agriculture.
    Agriculture has immensely benefited from great 
technological advancements, however, these advancements are 
slowly becoming dysfunctional and damaging. Within the 
production of livestock, many popular technologies, such as 
artificial insemination, in vitro, and flushing help the 
producer to turn out healthier and larger yields of their 
product.
    Now, don't get me wrong, these technologies do have their 
perks, but their cons have a much larger impact on the future 
of agriculture. When producers take these advances to the 
extreme, excuse me, scary things can happen. The loss of 
diversity in genetic pools when producers breed for certain 
traits leads to the loss of immunities, genetic mutations, and 
congenital defects.
    My best example of genetic diversity lives in my barn. I 
have a 10 year old 300 pound mutt of a goat. Hash Brown, in the 
picture, was my very first 4-H project, from bottle baby to a 
vertical 8 tall goat on his back hooves. This genetic mashup 
has never gone down due to illness. His only breeding--his only 
medication is the monthly worming, and an occasional booster 
shot. His diversity and breeding has aided him in being an 
extremely healthy livestock example.
    Thank you for your time, and this opportunity to be the 
youth voice of agriculture. We will see you all in the barn, 
and the floor is now open to questions.
    [The combined prepared statements of the 4-H presenters 
follow:]

             Combined Prepared Statements of 4-H Presenters
           prepared statement of harley rogers, hamilton, tx
    Hi I'm Harley Rogers. I am a 10 year 4-H'er from Hamilton, Texas. 
I've grown up on a ranch my whole life and I have been showing cattle 
since I was 7 years old. The beef cattle industry is something that I 
am very passionate about. A few years ago my siblings and I decided we 
wanted to start a grass-fed beef business to meet the consumers demand. 
Grass-fed beef is something that is very popular in the urban area. I 
started marketing the beef in Farm to Table markets in the Austin and 
Dallas area. I was constantly being asked questions about the beef I 
was marketing. The buyers would e-mail me questions concerning hormones 
and additives in the beef. A lady named Constance was very concerned 
about my steers, so I gave her the chance to come to Hamilton and view 
my operation. Constance came down to small-town Hamilton, Texas in her 
little Mercedes-Benz. I took her to my ranch and showed her all my 
cattle and my everyday routine. She was so impressed and as a result 
Constance and I became friends. She would come to my stock shows and 
watch me show, and she would text me all the time. Gaining this trust 
between the consumer and producer is something that I believe is very 
important. Constance told all her neighbors in Fort Worth about me, 
which proved to me that she trusts me and they trust me. I realize that 
this is just a small step in building the bridge between consumer and 
producer while getting the word out about where your food comes from, 
but I believe that this is my stepping stone into the future of 
Agriculture.

    Now, a delegate from Delaware will speak.
            prepared statement of alexandra swan, newark, de
    Hi my name is Alexandra Swan, I am from New Castle, Delaware, and I 
have been in 4-H for 9 years. New Castle is very limited on farm space, 
and limits the ability to have farms and to have an agriculture view. I 
have been blessed to have the opportunity to raise market and breed 
lambs, but due to the space left on my families small farm I do not 
have the ability to grow my farm and buy ten more head of lambs. 
Although I am fortunate to have a farm and be a part of agriculture in 
Delaware, there are many people who do not get to be a part of 
agriculture. 4-H has allowed me to be an advocate in livestock but many 
kids in 4-H do not get to have livestock. Many kids in Delaware 4-H do 
crafts, foods, and clothing but have no interest in agriculture or 
where their food comes from. New Castle 4-H is putting together a ``Day 
on the Farm''. With ``The Day on the Farm'' 4-H is teaming up with 
Woodside Creamery which is a local creamery to teach families about 
being on a farm and what is really behind farming, not only at the 
creamery but also other organizations that promote agriculture are 
being invited to talk about their aspect on farming and 
responsibilities on their own farms. Our goal in New Castle is to bring 
the urban and rural community together so that agriculture can grow in 
New Castle, Delaware.

    Now, a delegate from California will speak.
           prepared statement of gabriella germann, ceres, ca
    My name is Gabriella Germann and I am from Ceres, California. I 
have been a 4-H member for 9 years. I've lived in a dairy farm my 
grandfather started in Central California my whole life. Being immersed 
in the agriculture industry through the dairy business, I have 
developed a passion for the industry and its promotion. Even though I 
live in a primarily agricultural community, I was stunned by the lack 
of awareness among youth and teens. My family has hosted school visits 
to our dairy for elementary school children and I have presented at 
local elementary school career days, speaking about the dairy industry 
and agriculture as a whole. Through this, I have learned the importance 
of informing people about agriculture while they are young, so as to 
cultivate early understanding and support, bridging the gap between 
consumers and producers.

    Now, a delegate from Illinois will speak.
           prepared statement of jillian parrent, normal, il
    My name is Jill Parrent and I am a delegate to National 4-H 
Conference from Normal, Illinois.
    I am a 10 year 4-H'er and have been involved in 4-H my entire life. 
My grandparents, mom, aunts, uncles, and cousins have been involved in 
4-H for three generations so 4-H has been a family affair. I view 
agriculture through several lenses as I live in a town of 200,000 yet 
my mother's family owns and operates a ranch and farm that has been in 
the family for four generations. My immediate family is involved in an 
agri-tainment pumpkin farm.
    The pumpkin farm is a fall destination for much of our urban 
population to visit. It focuses on teaching guests about agriculture 
through activities and entertainment while making family memories in 
the fall. For the 7 weeks we are open, over 36,500 patrons come to our 
farm. We expose them on to how plants grow, animals and their 
behaviors, the many ``jobs'' a farmer has and must do, and how 
agriculture influences our lives each and every day. Nearly every 
activity available is connected to agriculture in some way.
    School age students come to our farm to experience a taste of 
agriculture they wouldn't have the opportunity to experience otherwise. 
In our 2014 season we had the opportunity to teach over 4500 students 
about agriculture using agri-tainment. We teach them many aspects about 
agriculture. For example, we introduce them to eight different field 
crops grown often in Illinois. They get to see the plants, feel the 
stalks and seeds, and learn why the crop is produced. The students pick 
their own pumpkin, learning how a pumpkin grows--from the seed in the 
soil to the flower, the importance of bee pollination, and finally a 
ripened product. They also learn about the many bushels of corn 
produced in Illinois, touch and feel an ear of corn, and learn that 
byproducts of corn include the sweetener in some of their sodas and 
sport drinks, the coloring in fireworks on the 4th of July, and that 
nearly every item on the menu at McDonalds contains corn or soybeans. I 
have a passion and desire to teach the public about agriculture through 
activities that excite them while keeping them interested in the 
lessons we teach them. If I have the opportunity to impact 20 kids, I 
know that is 20 lives more than I would have been able to impact 
without our agri-tainment farm.

    Now, a delegate from Indiana will speak.
          prepared statement of shelby nierman, brownstown, in
    Hi my name is Shelby Nierman. I have grown up on a small dairy farm 
in Brownstown, Indiana where I have been involved in the 4-H program 
for 10 years. Living in a rural area, I am surrounded by agriculture. 
My parents and grandparents have instilled in me the value of 4-H, and 
because of that, I have had numerous opportunities to meet people from 
across the United States. A few years ago, I was given the opportunity 
to be a part of the first Indiana 4-H Dairy Youth Academy. This 
experience brought together fourteen youth from across Indiana with an 
interest in the agriculture industry. We were able to visit various 
farms in Indiana, Michigan, Wisconsin, and Canada. Through this 
experience, even with an agricultural background, I was surprised with 
the different ways that farmers manage their operations. If you ask a 
farmer what he would do if he wasn't in this industry, he will more 
than likely say he hasn't thought of doing anything else. It is 
important to understand that farmers are passionate about their jobs in 
the agriculture industry. This select group would not have the 
incentive to complete the hard work of their job without passion and 
dedication. The opportunities I have had allow me to not only share my 
story, but also accept the diverse backgrounds of others. Programs, 
such as 4-H, are essential in bridging the gap between rural and urban 
areas. The 4-H program brings together youth with individual 
experiences, passions, and beliefs. To bridge the gap between rural and 
urban perspectives of agriculture, producers and consumers can find a 
common interest through the 4-H program. We have the opportunity to 
hear the opinions of consumers through 4-H, and because of this, we can 
improve, innovate, and learn from each other.

    Now, a delegate from Rhode Island will speak.
        prepared statement of kailey foster, south kingston, ri
    Hi my name is Kailey and I'm from Rhode Island. I've been involved 
in 4-H for about 6 years. Unlike most of my fellow delegates I did not 
grow up with too much agriculture in my life. Sure, my dad is a milk 
truck driver and his family members are all farmers, but other than 
that I had no connection to that way of life. My mom grew up in the 
city where her idea of a major farm was an apple orchard. On the other 
hand, my dad grew up on a farm and was very involved with 4-H and FFA. 
With that being said I was always preached to by my mom that farms are 
gross, dirty, and smelly. It wasn't until I was 10 years old when I 
caught my first glimpse of what 4-H was. My dad took me to a local fair 
to watch my very first dairy show. I remember how excited my dad was to 
show me this part of his childhood and him telling me if this was 
something I wanted to do I could. Watching my first show changed my 
look on agriculture, now the tough part would be to get my mom to have 
a change a heart like I did. My mom eventually gave in and let me join 
but she wasn't 100% on board with the idea. So that year I joined 4-H 
and I worked hard with my dad to prepare my animal. When fair season 
comes along, my mom did come as support but kept her distance from the 
cows. She liked to spend her time at the ``fluffy rabbit'' cages. When 
she found out that these ``fluffy rabbits'' are also a part of 4-H she 
took that in as her way to accept 4-H better. Since then we have had 
many rabbits, at one point we were caring for 50 rabbits. Even though 
we have had many rabbits, I have never had a cow of my own. As the 
years have gone by I have gotten more and more involved with 4-H and 
with the dairy cows and my sisters also joined my club also with dairy 
projects. This made it so my mom learn about agriculture and she 
started to except this way of life and 6 years later I am getting a cow 
of my own. My experience of coming from a family with both urban and 
rural backgrounds has given me an opportunity to be my own bridge 
within my family.

    Now, a delegate from Connecticut will speak.
           prepared statement of danielle brazeau, storrs, ct
    Hello, my name is Danielle Brazeau. I am from Storrs, Connecticut 
and this is my sixth year in 4-H. Growing up in a suburban area I have 
developed an appreciation for farmers through 4-H. My 4-H animal 
projects include rabbits, chickens, horses, and goats. I have learned 
that it doesn't matter how you feel or what the weather is like, the 
animals still need to be fed, watered, and cleaned. This is something I 
feel many people in my community do not understand. The animals don't 
just sit there and care for themselves. Raising livestock is a huge 
commitment and a lot of hard work but is also very rewarding. I was 
given three chickens by someone in my town who like the idea of fresh 
eggs but once they got chickens they realize that they weren't up for 
the work involved. I along with many others involved with animal 
husbandry have a great passion for what we do. In 4-H and FFA we attend 
public events to educate people about our agricultural related projects 
and all the hard work that goes into them. We want them to understand 
not only where their food comes from but also all the work and 
commitment that goes into producing it. It is also important to educate 
youth about agriculture because they are the next generation of 
consumers. If they know more about how their food is produced it will 
help bridge the gap between the producer and consumers.

    Now, a delegate from California will speak.
          prepared statement of colton searcy, porterville, ca
    Hi, my name is Colton Searcy, this is my 10th year in 4-H, and I 
live in Porterville, CA. I live in the largest agriculture producing 
county in the nation, but I have no agriculture background. 4-H and 
school field trips have taught me everything I know about agriculture. 
Being in the county that I live in, the drought has affected the way I 
live. Four years of below average rainfall has caused the wells on the 
east side of Porterville to completely dry up. Portable showers, 
portable toilets, and bottled water are a necessity. Governor Brown has 
just imposed a 25% restriction on water throughout the state, but how 
are you going to restrict water if we don't have any? If we build water 
infrastructures and contain the water, we will revive the local economy 
from all the loss of crops. Even with the water restrictions, we would 
need to have 11 trillion gallons of water, that equates to the amount 
of water Niagara Falls puts out in 150 days. If we work together with 
agriculture and urban areas, we can make the best out of the drought.

    Now, a delegate from Minnesota will speak.
          prepared statement of hannah hasbargen, wheaton, mn
    Good afternoon, my name is Hannah Hasbargen and I live on a family 
operated farm in the Red River Valley of Minnesota. When I was 6 years 
old, I began to show livestock in 4-H and this is my thirteenth year 
being an active 4-H'er. Today I would like to talk about the Future of 
Agriculture and I will start by comparing the United States to other 
countries around the world.
    By 2050, the world's population is projected to be 9.1 billion, 
which is 34% higher than it is today. As you can see in this table, the 
percentage of people who farm in Africa is 65% whereas in the United 
States only 1% of the population is directly involved in the production 
of agriculture. This is very interesting when looking at the next 
comparison, which is the cost of food as a percent of disposable 
income. Consumers in the U.S. spend less than 10% on food while their 
African counterparts spend approximately 70% of their disposable income 
on food.
    We face a number of challenges internationally as producers 
including sustaining global food security; however, there are also 
domestic challenges. Some of the major issues include consumer 
perceptions of biotechnology, food safety and labeling, and pesticide 
use; when you take these technological advances and innovations away 
from farmers you decrease production levels while increasing prices. We 
need to remember that as agriculture producers we are working to feed 
the masses and further improve agricultural practices.
    U.S. ethanol production has increased rapidly since 2006. The 
expansion in domestic ethanol production has been one of the main 
drivers of the corn market.
    During the Super-Cycle of Agriculture, corn reached a high of $8 
per bushel and soybeans soared to $18. As farmers, we took our profits 
from the high prices of the Super-Cycle and invested them by pattern 
tiling 50% of our land, updating our crop drying systems to add 
efficiency and reduce cost. We also use GPS and precision guidance 
technology on all of our tillage, spray, planting, and harvesting 
equipment to reduce costs by eliminating overlap.
    Our operation has integrated this into filed mapping with yield and 
fertility that allows us to variable rate seed and fertilizer, which 
saves us up to 25% on costs. These innovations have been made by the 
majority of farmers in our area and should leave us in good condition 
to weather the period of low prices that we now find ourselves in due 
to the downturn of the cycle.
    The Super-Cycle has shifted paradigms of agriculture and rural 
America, creating challenges, chaos, and opportunity, which will be 
influenced by the policies made in this room. So, will we face the 
situation like other developing countries where a higher percentage of 
our disposable income is used to feed the nation or will we allow 
technological advances to continue to infiltrate the agriculture 
industry?

    Now, a delegate from Wyoming will speak.
             prepared statement of brook weibel, burns, wy
    Hi my name is Brook Weibel. I live in Burns Wyoming, about 25-30 
miles East of Cheyenne. I have been in 4-H for 10 years and FFA for 5 
years. I do a variety of projects in 4-H; for example I have done 
shooting sports, photography, as well as other static exhibits. My main 
project though is pigs; I have shown market pigs for about 8 years. My 
parents both come from a farming and ranching background, and got my 
sister and I started with pigs when we were younger just to see if it 
was something we wanted to pursue even further. They were right, my 
sister and I loved having and showing pigs! We have always shown our 
pigs at fair but we haven't every done anything else with them.
    This year however, we talked about trying to breed them. My parents 
both breed their own pigs when they were in 4-H and FFA. A couple years 
ago my sister had a really nice gilt, and we decided we were going to 
try and breed here, but then she got sick and we had to put her down. 
We haven't really talked about it since then; that is until now. We 
have a lot of things that we have to think about, such as whether or 
not we will A.I. (artificial insemination) the pig(s), or if we will 
find a boar and go down that road.
    We live on a 40 acre farm, but we don't really have any crops just 
animals, so we can't make our own feed like other people do, so it will 
be expensive buying feed. The other obstacle we are trying to work 
through is that we don't really have the facilities on our property to 
properly breed the pigs. This being said in the Burns community one of 
the main showing animals is pigs, and we have two or three people who 
breed them in Burns alone, and a few people in Pine Bluffs about 15 
miles East of Burns. The biggest obstacle though is having someone 
available to feed the pigs every day, because my family is very active 
and we are gone quite a bit.
    Though there are many obstacles, I know my family can overcome 
them, and it makes me excited to even think about getting up in the 
mornings and hanging out with piglets! My future in agriculture is 
hopefully breeding pigs, and having more facilities at my house to be 
able to do it on our own.

    Now, a delegate from Colorado will speak.
            prepared statement of wade hofmeister, brush, co
    Hello, my name is Wade Hofmeister and I am from a small family 
owned farm in Colorado. Our main crop that we grow is alfalfa that we 
use to feed to our animals. Using this method we have reduced the 
amount of money that we would spend on buying hay from auctions and 
other sources. This method has also helped with making our feeding 
process faster. The main problems that we have of growing alfalfa are 
infestation of insects. This is a problem because the quality and 
quantity of the crop is diminished. Also it needs a sufficient amount 
of water for the plant to thrive from. It also must be plowed up 
ideally every 5 years because it does not provide well as it ages. 
Growing this crop has helped my family and I through tough times and 
provided food for all of my animals in 4-H.

    Now, a delegate from Nevada will speak.
         prepared statement of garrett tomera, spring creek, nv
    Hi, my name is Garrett Tomera and I am from Nevada. I have been in 
4-H for 10 years. I am a sixth generation rancher of Northern Nevada. 
My family has been ranching for more than 150 years. Over the past 
years my family has noticed that the relationship between the producer 
and the consumer has been growing apart. My mom Kristi Tomera, and I 
started researching how to connect with the consumer we found out that 
in one of the southern states they have an app called, ``meet your 
farmer'' in their grocery store. This app allows them to virtually meet 
the producer through a video that tells them about how their food got 
from the farm to the store. One way we educate our community is that we 
have an ``agriculture in the classroom'' at our local middle school. We 
bring livestock and tell the kids about the animals by products and how 
they are made.

    Now, a delegate from Idaho will speak.
          prepared statement of tyler basset, st. charles, id
    My name is Tyler Bassett from Bear Lake Idaho. I have been in 4-H 
for 6 years and counting. In my little school students have the option 
of taking ag classes. A decent amount of students take these classes, 
but more for a free period than to actually learn and better 
themselves. It is not that my teacher doesn't teach them because he 
does and does an amazing job at it. It is that my generation as no 
interest in Agriculture and does not care. They have no real respect 
for it. I have this image in my mind that if this continuous my 
generation's level of using and understanding Agriculture will drop 
dramatically. This could, in turn, change the outcome of students that 
go into the field of Agriculture to produce the things we need for 
everyday life. I believe that if we include more activities involving 
outdoor Agriculture opportunities, that students that might have not 
have an interest in Agriculture will find that it is a extremely 
interesting and useful tool. Students will then respect it more and 
will want it in their daily lives. If more students find interest in 
Agriculture they then may go into it as a career, which will, in turn, 
increase production of required products. I find it very important that 
this happens and that Agriculture is not forgotten about in my or any 
generation.

    Now, a delegate from Missouri will speak.
           prepared statement of darby schmidt, defiance, mo
    Hello, my name is Darby Schmidt and I am from Defiance, MO. I have 
been a 4-H member for 10 years. I have grown up in a small town about 
an hour outside of St. Louis, but have attended a large, suburban 
school system my entire life. There is a decreasing number of farms in 
my community, and only a few students with agriculture backgrounds. As 
a 4-H project, I started raising and showing Boer goats. 4-H was my 
gateway to agriculture. I have had many opportunities to see first-hand 
the public's misconception of today's agriculture in my school. Most of 
my classmates have no idea where their food comes from and have a lack 
of knowledge about modern agriculture. When my friends come over to my 
house they are very interested to learn about how their food is raised. 
They don't understand how livestock has to be feed and watered 
everyday. They also don't understand that when the goats are sick, I 
have to give them medication. I believe that it is important to teach 
the importance of modern agriculture in our schools and to improve the 
future of agriculture we must educate our youth consumers. Everyone 
eats, so it is important for everyone to learn about where their food 
comes from. Through advocating in my school and being a member of the 
4-H program, I have decided to pursue a degree in agribusiness and be a 
part of the future of agriculture.

    Now, a delegate from Maine will speak.
           prepared statement of shaynen schofield, knox, me
    Hello my name is Shaynen Schofield I am from Waldo County, Maine. I 
do not personally live on a farm but agriculture is a huge part of my 
life. I have been in 4-H for 10 years and in this time I have shown 
sheep, goats, pigs, and I currently show dairy cows. My school is 
divided into two groups--kids with an agricultural background and the 
kids with little to no agricultural background. I personally have an 
agricultural background. I spend most my summer showing cows at fairs 
and at my uncles farm taking care of the animals. A lot of the kids at 
my school with little to no agricultural background don't understand 
the amount of effort that is put into taking care of the animals. 
Waking up early to get chores done before breakfast and we start chores 
around 3 so we can get done at a decent hour. I believe if we had a 
special day for agriculture awareness were people could go to a farm 
near them and see where their food comes from and so they could see the 
amount of effort put into raising and taking care of the animals. I 
think that this could help make farmers and ranchers more respected in 
the way that their life is the farm they have little time for anything 
else.

    Now, a delegate from Colorado will speak.
        prepared statement of jennifer golbuff, fort collins, co
    Hello, my name is Jenni Golbuff. I am 17 years old and a 4-H 
delegate from the State of Colorado. I have been a 4-H member for 12 
years. I am a supporter of the biotech crops, because, using these 
crops can help to protect our resources. These modified crops actually 
use less fuel, help water efficiency, reduced spray uses, and give 
farmers better harvests.
    When I was a little girl, a large tornado ripped through my little 
farm town in Minnesota. A lot of buildings were destroyed, but what was 
worse, was the harvest that fall. My little town mainly harvested 
soybeans and corn, and most of our harvests were destroyed in the May 
Day Tornado. When I found out about Biotech crops, I was amazed. Just 
imagine, a trait added to corn so that it can have stronger stalks they 
will not be as easily destroyed in tornados or storms.
    Better harvests and less resources used to help feed the future 
generations? That's what we need to be thinking about, not just for the 
present farmers, but for the future farmers and future generations, 
like my fellow delegates and myself, who are the next generation.

    Now, a delegate from Texas will speak.
            prepared statement of merah winters, belton, tx
    Hello, my name is Merah Winters. Located in central Texas, I live 
in a large urban and rural community. My 4-H involvement spans 9 years 
so far.
    Within that urban setting, it amazes me the lack of awareness many 
citizens in the community have. When asked, ``Where does your food come 
from?'' many consumers will respond, ``The grocery store.'' Or ``I 
don't know.'' 4-H is a program that has allowed me to help reverse this 
loss of knowledge and teach some essential skills learned through 
agriculture.
    Agriculture has immensely benefited from great technological 
advancements, however these advancements are slowly becoming 
dysfunctional and damaging. Within the production of livestock many 
popular technologies such as Artificial Insemination, In-vitro, and 
flushing help the producer turn out healthier and larger yields of 
their product. Now don't get me wrong these technologies do have their 
perks, but their cons have a much larger impact on the future of 
agriculture. When producers take these advances to the extreme scary 
things happen. The loss of diversity in the genetic pools when 
producers breed for certain traits leads to loss of immunities, genetic 
mutations, and congenital defects.
    My best example of genetic diversity lives in my barn. I have a 10 
year old, 300 pound, mutt of a goat. Hash Brown was my very first 4-H 
project. From bottle baby to a vertical 8 tall goat, this genetic mash 
up has never gone down due to illness. His only medication is the 
monthly worming and an occasional booster shot. His diversity in 
breeding has aided him in being an extremely healthy livestock example.
    Thank you for your time and this opportunity to be the youth voice 
of agriculture, and we'll see you at the barn. We will now open the 
floor for questions.
                              Presentation
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Harley Rogers, Hamilton, TX
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Alexandra Swan, Newark, DE
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Gabriella Germann, Ceres, CA
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Jillian Parrent, Normal, IL
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Shelby Nierman, Brownstown, IN
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Kailey Foster, South Kingston, RI
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Danielle Brazeau, Storrs, CT
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Colton Searcy, Porterville, CA
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Hannah Hasbargen, Wheaton, MN

------------------------------------------------------------------------
                                               U.S.           Africa
------------------------------------------------------------------------
Percentage of people who farm                        1%            65%
Cost of food as percent of disposable                9%            70%
 income
Agriculture trade                           Export $140B     Import $35B
Corn yields bushel/acre                             180             20
------------------------------------------------------------------------

                                                     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                         
                                                          
Brook Weibel, Burns, WY
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Wade Hofmeister, Brush, CO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Garrett Tomera, Spring Creek, NV
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Tyler Bassett, St. Charles, ID
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Darby Schmidt, Defiance, MO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Shaynen Schofield, Knox, ME
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Jennifer Golbuff, Fort Collins, CO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Merah Winters, Belton, TX
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Well, thank you to all the participants. 
Shaynen, can you come up here? I have to give you something. I 
talked to your Member of Congress on the floor, and he wanted 
me to give you his card, a new Member, Mr. Bruce Poliquin. 
Here, come on right up here this way. And Colton, Kevin 
McCarthy said hello. All right. I don't think it is lost on the 
Committee that the presentation started with a Texan and ended 
with a Texan, too. Only in the House Agriculture Committee.
    First off, before we get to the questions, I would like to 
thank some of the folks that are with you today, Dr. Lisa 
Lauxman, the Director of the Division of Youth and 4-H at USDA 
right here in Washington, D.C. Thank you, Dr. Lauxman. Shelby 
Maresca, National 4-H Conference Roundtable Facilitator at, of 
all places, Texas Tech University in Lubbock, Texas. I also 
want to say thank you to a few of the chaperones, Theresa 
Bishop, from Missouri, Craven Hudson from Georgia, Tamara McCoy 
from Texas, Brian See from Arkansas, and Cassie Turner from 
Ohio. So thank you all very, very much.
    I would like to begin the questioning. I can always ask my 
questions later, so I will defer to the other Members. Chairman 
Conaway, you are first on the list.
    Mr. Conaway. Thank you, Mr. Chairman, and thank you for 
each of you being here today. In my opening remarks I mentioned 
this idea about trying to create an urban/rural coalition to 
help us pass the next farm bill, and little did I realize what 
terrific spokesmen were already in the works for helping to 
make that happen.
    So the problem we have is that we have to tell our story 
over, and over, and over, and after you have done it a zillion 
times, and you are about to throw up about it, you have to tell 
it four or five more times. When you finally break through to 
the folks who really need to make this happen, because our 
folks in urban America, as I mentioned earlier, benefit from 
the low prices that they pay, and it is in their self-interest 
that we have a strong production in agriculture. So thank you 
for being those great spokesmen.
    I am going to pick on the Texans. Merah, you seem very 
poised and polished as a speaker. Can you talk to us a little 
bit about your 4-H experience, and were you already this poised 
and polished a speaker before you came?
    Ms. Winters. I actually have been able to collect a very 
polished skill set with speaking in my last couple of years of 
high school. As a young 4-H'er, I was very shy, and always 
curious about it, but I never wanted to approach anyone and try 
and learn about it. So my speaking has really grown its skills 
as I have grown in confidence, I really love educating people 
about my species of goat, and about the things that I am 
passionate about, and with that poise and polish, I guess I can 
always thank my grandmother for that.
    Mr. Conaway. Nothing like good genetics, right?
    Harley, can you talk to us a little about your plans to 
major in agricultural economics in college. Can you talk to us 
about how your experience owning and bargaining cattle has 
given you some grassroots experience that you will use when you 
go to college?
    Ms. Rogers. Okay. Skills that I have learned with owning my 
business, and having all the cattle I have, I have learned that 
making connections is very useful. Everywhere you go you need 
to make a great first impression because you never know who you 
are meeting, and traveling around, promoting the beef industry, 
going to shows, going all over the nation, has taught me that I 
need to make a great first impression.
    Because whenever I go to college, whenever I am going I 
want to major in agriculture business, I need to make an 
impression, because who knows, in the future, when I own my own 
business, I don't know, maybe I met one of those kids when I 
was in college, so making a first impression is something I 
have learned is very useful.
    Mr. Conaway. All right. I can't remember which one of you 
had the fluffy rabbits. All right. What was the ultimate goal 
of the fluffy rabbits? Did you sell them into the meat market, 
or did you sell them for pets?
    Ms. Foster. We sell our rabbits for pets.
    Mr. Conaway. Okay. I was just wondering. Your mom, did she 
realize when you do sell them for meat, that that has a 
different outcome?
    Ms. Foster. Yes.
    Mr. Conaway. Okay. All right. Well, again, thank you for 
what you do. I look forward to the future of production of 
agriculture. It appears to be in great hands. You are wonderful 
examples, and ambassadors for that effort, and keep up the good 
work, and I look forward to your future leadership in this 
industry. And with that, Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you, Chairman Conaway. The chair now 
recognizes the Representative from Florida, Ms. Graham, for 5 
minutes.
    Ms. Graham. Thank you. I am sorry I came in a little bit 
late, but it is just so wonderful--thank you, Mr. Chairman. It 
is so wonderful to see so many terrific young people 
representing the agriculture industry. And I thank each of you 
for being here today. And, not to go back to the fluffy 
rabbits, but are they Angora rabbits?
    Ms. Foster. We----
    Ms. Graham. I guess we are going back to the fluffy 
rabbits, but----
    Ms. Foster. We have varieties of different rabbits. We have 
lion heads and English flop.
    Ms. Graham. And where are you from? I am sorry, I don't 
know----
    Ms. Foster. I am from Rhode Island.
    Ms. Graham. Okay. I am interested in getting a rabbit, so 
maybe we can talk afterwards. My family was in the dairy 
business, dairy cattle business, and now we are in the beef 
cattle business, and pecans, and timber. I am interested in 
agriculture. This is for anyone who wishes to answer, what is 
most rewarding for you, being involved in agriculture?
    Ms. Swan. Being involved in agriculture, it is very 
rewarding to see that you raised a lamb, any type of livestock 
you have, whatever you have, it is so rewarding to see that you 
raised that small little livestock, whatever breed it might be, 
to see what it has become, and see what your flock, or whatever 
you have has increased so immensely, and is so much better than 
when you first started out with that little market lamb, or 
little heifer, or whatever you----
    Ms. Graham. Yes. That is great. Does anyone else want to 
answer? Yes?
    Ms. Schmidt. I believe that the most rewarding part of 
being a part of the agriculture industry is the people, and how 
everyone is working together for a common goal of feeding the 
world, and that everyone really cares about the industry, and 
is doing the job because they love it.
    Ms. Graham. That is great. Again, thank you all for being 
here. I know our future is in just terrific hands. I don't know 
how much more time you have here in Washington, but I hope you 
all enjoy your time very much. Thank you again. Mr. Chairman, I 
yield back my time.
    The Chairman. The gentlelady from Florida yields back the 
balance of her time. The gentleman from Michigan, Mr. 
Moolenaar, is recognized for 5 minutes.
    Mr. Moolenaar. Thank you, Mr. Chairman. And, again, I want 
to thank all of you for testifying today, and sharing your 
stories with us. There were a few questions I had for you. If 
someone could help me understand the similarities and 
differences between 4-H and FFA, because I have FFA and 4-H 
throughout, and kids are involved in learning great things, and 
no one is really ever explained to me the similarities and 
differences.
    Ms. Golbuff. All right. Well, I am a 4-H member for about 
13 years now, and my family has also been involved in FFA. I 
tried to get in it since I was in 6th grade, but that didn't 
work, obviously, well, the differences are--well, I will start 
with similarities, actually. Everyone is so amazing. There are 
a ton of leadership opportunities, like coming to Washington, 
D.C. like this, there are differences, though. Like, we both 
show animals, but we don't show necessarily the same type of 
way. And there are also, like--4-H you get to do more projects, 
so there is a lot of different opportunities and skill-sets 
that go with FFA and 4-H, so----
    Mr. Moolenaar. Does one occur more in the school system, 
and one is more extracurricular?
    Ms. Golbuff. Be my guest, guys.
    Ms. Rogers. So 4-H is an out of school thing. FFA is in 
school, and it is divided into two sections, SAEs and CDEs, and 
that is not how 4-H is. 4-H is a broad spectrum, and it is all 
out of school.
    There are a lot more opportunities in 4-H, because there is 
a much more wider range of opportunities that you have. You can 
do all kinds of things in 4-H, like shooting sports, showing 
livestock. But you do that in FFA too, but it is really 
combined into two things, CDEs and SAEs, and they are in 
different seasons, and that is not--okay, hold on. It is----
    Mr. Moolenaar. Do you get school credit for either one?
    Ms. Rogers. No. FFA is extracurricular, and 4-H is strictly 
out of school. You can be home schooled and do FFA--or 4-H.
    Mr. Moolenaar. Well, thank you. The other thing I wanted to 
ask: many of you mentioned there is a disconnect between people 
who are involved in agriculture and growing our food, and then 
people who may not have that same understanding. If there were 
maybe two or three misconceptions that you have sort of 
identified that we should all be working on clarifying and 
helping people understand better, based on your experience, 
what would some of those things be?
    Ms. Nierman. I think that the biggest misconception is that 
people do not know where their food is coming from, and that 
something needs to be done through education to teach consumers 
where their food is coming from.
    Ms. Germann. Another misconception that I have noticed is 
the animal rights and the cruelty issue. We were watching, a 
couple days ago, in our roundtable a commercial from Chipotle 
which had a scarecrow who was a farmer going around his town, 
and he saw the different types of animals, and the behind the 
scenes of what farmers really do, that he thought. And so it 
showed chickens being plumped up, cows being shut into dark 
corners and hooked up to machines.
    People really need to understand that there is no reason 
why farmers would be cruel to their animals. Granted, there is 
that small percentage that are, and that is where those videos 
and that information comes from, but that is really only a 
small percentage. The rest of farmers--and if you think of it 
from an economic sense, a farmer wouldn't make money if his 
animal isn't treated right, if his animal isn't the most 
comfortable it is. And I know, since I grew up on a dairy, my 
father is always working to make sure that the animals' pens 
are clean, and that they are the most comfortable they can be 
so that we, in an economic way, can get the most yield that we 
can.
    People really need to see that farmers are not evil. We are 
not trying to get them, to hoodwink them or trick them, and we 
are not trying to beat our animals.
    Ms. Winters. If I could add on, one of the larger 
misconceptions about agriculture that people don't understand 
is that agriculture is not just animals. Agriculture is not 
just farming. Agriculture controls our clothing industries. 
Agriculture controls the majority of our food, controls the 
land, controls the animals. Agriculture is spread throughout 
our nation and everything. It is not just about the animals, 
and production of livestock. I think that if consumers really 
did grasp that, that they would be more involved in really 
educating everyone, and getting agriculture back to the numbers 
that it should be.
    The Chairman. The gentleman's time has expired. The 
gentleman from Massachusetts, Mr. McGovern, is recognized for 5 
minutes.
    Mr. McGovern. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing today. This is an incredibly 
impressive panel. Everyone who spoke is unbelievably eloquent 
and passionate, and I really appreciate your strong feelings 
about farming, and about agriculture. I was visiting a farm in 
Massachusetts, and a reporter asked the farmer, what is the 
difference between being a farmer and being a Congressman? And 
he said, ``Well, being a Congressman, sometimes you work all 
day, and accomplish nothing. But farmers, every day, you 
produce something.''
    That is what I have come to appreciate; your hard work. We 
get vacations, and can go away, and not have to worry about 
anything for a few days at a time. If you are a farmer, every 
single day you have to worry about your crops, or your cattle, 
or whatever it is. Every day you have to make sure everything 
is just taken care of.
    I appreciate the fact that there are people here from 
Connecticut, Rhode Island, and Maine, because sometimes people 
don't realize that some really important agriculture goes on in 
the Northeast. So I will ask Danielle since no one from 
Massachusetts is here. Maybe you locked them in the hotel room? 
Danielle is from Connecticut, which is close enough. Why do you 
think agriculture education is important, and how do you think 
fairs help educate others about agriculture?
    Ms. Brazeau. I think that agriculture education is very 
important, so that people do not have these misconceptions that 
we have previously talked about, and it is also important to 
educate the youth, because they are our next generation of 
agriculturists, along with consumers. And if they are educated 
from a young age, that would prevent having the misconceptions 
of them when they are older, and more in the consumer market.
    Also, fairs are very important because it is a great way 
for people to enjoy learning about agriculture, and seeing what 
us farmers do, and all the hard work that goes into our 
projects, as well as the final product.
    Mr. McGovern. I appreciate it.
    Shaynen, let me ask you, from Maine, can you tell us about 
your involvement in 4-H, and how it has shaped you? And also, 
how can you advocate for agriculture through showing dairy 
cattle?
    Mr. Schofield. Well, I think that 4-H has shaped me in a 
way that, without 4-H, I don't think I would be as responsible 
as I am. It has taught me how to treat people better, how to be 
a better person in the community, how to help my community in 
any way that I can, and to just treat everyone better.
    I think that I can be a good advocate of agriculture with 
showing animals in a way when you come to a state fair in 
Maine, a lot of the people like to come to the fair to see our 
animals, and just see how we treat our animals, because we make 
it a little more fun than just the rides, and the food, and the 
midway. I think that bringing the animals to the fair, it can 
help younger people and older people learn more about the 
animals, and where their food comes from.
    Mr. McGovern. I appreciate all of you being here today. You 
are educating not only us, but you are educating some of your 
peers, fellow students, about the importance of agriculture. 
You could live without a lot of things, but you can't live 
without food, and we can't get food without agriculture and 
farmers. I appreciate very much you being here, and I wish you 
all the very best of luck. Thank you. I yield back.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from Minnesota, Mr. Peterson. But 
before I do, I will let you know one of your constituents, on 
the far end on the left, Hannah, is here today. She did an 
excellent job representing your district.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. I had a chance to meet with her a little bit 
before the hearing kicked off, and it is fair to say that she 
is a tremendous representative of 4-H. For those who don't 
know, I am a 4-H kid. I remember going to 4-H when I was, I 
don't know, 7, 8 years old. They made me get up and talk in 
front of the group, and I about had a heart attack and passed 
out, because I was so scared.
    4-H had a lot to do with me developing into what I have 
done later in life. I am reading Hannah's biography here, she 
received Grand Champion at the state fair in her beef project. 
I only received Reserve Champion. I very much appreciate 4-H, 
those of us that represent rural America, and what it does for 
the youth of this country, but also what the youth of this 
country does for us.
    I have a couple questions for Hannah. I went to college, 
and had a dual major in accounting and business. Apparently you 
have decided to do a double major in accounting and 
international agriculture marketing. So how did your background 
in agriculture help you decide to do this?
    Ms. Hasbargen. I can remember being 2 and 3, and my dad 
taking me out in the tractor with him all day long, and it was 
just something that I grew up absolutely loving, and 4-H gave 
me the opportunity to expand on this, and kind of broaden my 
horizons, and see a little bit more of the industry, especially 
being out here on this trip. It is just been absolutely 
fantastic to see all the different views of agriculture from 
different states. I totally was not aware of the agriculture in 
Maine, and how it differed from Minnesota.
    And so I really think that my background, and wanting to be 
part of the family industry, and keep agriculture going, has 
really propelled me to go into the international ag marketing. 
And I want to stay more on the business side of it, and keep my 
fellow classmates, who are going into agriculture, and plan on 
staying in the area, I want to help them keep their businesses 
very profitable, and able to pass on to the next generation.
    Mr. Peterson. Thank you. And Chairman Conaway is here, and 
he and I are both CPAs. The first time, in history that the 
Committee has been led by two CPAs. Am I right about that, 
Mike?
    Mr. Conaway. I can't imagine it has ever happened before. 
So few us make it all this way.
    Mr. Peterson. So you better watch out. You get your CPA, 
and you never know what might happen? So what are you most 
passionate about in agriculture, and how do you convey this to 
others?
    Ms. Hasbargen. I would say I am most passionate about the 
marketing and finance side of it. I went to a marketing seminar 
by Dr. David Cole from Virginia Tech the other week. It was 
absolutely fascinating. I was enthralled through his entire 
speech. I realized that this is something that I really, really 
want to pursue. I want to be able to help my father, and our 
farm to become more profitable. I want to help my neighbors, 
and my classmates, and everyone to just really understand where 
we can go with agriculture. It is so much more than just 
planting.
    It is just as sophisticated as so many other industries. 
That is forgotten a lot of the time. How I convey this is by 
being interested, and asking questions, and attending seminars. 
I am not really at the teaching stage, but I hope after college 
I will be.
    Mr. Peterson. Well, thank you. And thank you very much for 
your passionate interest in agriculture, and all of you for 
being here, and sharing your time, and your stories with us, 
and other Members of Congress.
    Hannah comes from a fairly large county that has a small 
population. It is one of the premier agriculture production 
areas in Minnesota. And I had a chance last fall to go to the 
Travers County Fair, which is where she is from. I do this in 
quite a few counties. I had some opportunities to buy a couple 
animals at the 4-H auction, and help do what I can to support 
4-H, locally, and throughout the district.
    So thank all of you for being here, what you do, and I 
yield back.
    The Chairman. The Ranking Member, Mr. Peterson, yields back 
the balance of his time. We have gone through the first round 
of questions. I will take my opportunity now, as Chairman, to 
follow up myself with a few of my own.
    First off, give me a show of hands, who of you wants to be 
a Member of Congress someday? Of course, the one that could run 
against me. I am in trouble. You should have seen her give her 
presentation earlier. As for my colleagues who weren't here 
yet, Jill Parrent is my constituent, from Normal, Illinois. And 
yes, I am not a CPA, but I represent Normal. Jill, what year 
are you at Normal West?
    Ms. Parrent. I am a junior.
    The Chairman. A junior at Normal West Community High 
School, a high school I visited not too long ago, and obviously 
doing a great job with 4-H. And, Jill, while I have you there, 
I am going to pick on you a little bit, get you ready for being 
a Member of Congress someday. And I hope you do.
    And before we move on, I do want to tell each and every one 
of you, all of us were no different than you when we were your 
age. I probably wouldn't have raised my hand if I was asked to 
be a Member of Congress, but the confidence that all of you 
have demonstrated today, sitting in front of us, is something 
you can put on your resume, as someone who testified in front 
of a Congressional Subcommittee. Now, with the popularity 
rating of Congress, you may not want to, but it is a privilege 
for you to be able to be here, and it is a privilege for us to 
be able to hear from you.
    So, remember, no matter what you decide to do in life, 
whether it is to stay within the ag industry, whether it is to 
grow--make sure you have a few more Hash Browns in your 
stables--but just continue to take the lessons that you learned 
in 4-H, and be a leader. Continue to grow in what your interest 
is, and who knows, one day hopefully you will tap one of us on 
the shoulder on the floor of the House and say, hey, you may 
not remember me, but I was at your Subcommittee hearing a few 
years ago. That would be the biggest privilege, all of us, as 
current Members of Congress, could and should have.
    So now I get to pick on you, Jill. I want to make sure I 
ask you a couple questions. And I know, within your 4-H career, 
you have focused food, nutrition, and health. Can you tell us 
why?
    Ms. Parrent. I have always loved to bake and to cook. My 
grandma has always taught me. But especially 3 years ago is 
when it truly got started. My 90 year old grandma taught me to 
bake yeast breads, and so, throughout that process, a 90 year 
old being able to teach me makes me--it is one of the coolest 
things ever, because I know where my bread came from, and it is 
actually better than the store bought, I do have to say, not to 
brag.
    But I just really enjoy being able to bake, and to do all 
of that sort of thing. I like to know where my food comes from. 
So, again, going back to the agricultural perspective, I know 
that my yeast that I use in my yeast breads is coming from just 
even our farm, or our ranch in general. But I really enjoy the 
nutrition side of it as well, because I really have a desire 
for the community, and even the nation, to be healthy.
    So I truly enjoy being able to combine those speech, ag, 
and nutrition type of things together to even going into food, 
nutrition, and health.
    The Chairman. Well, thank you. The next time I am in 
Normal, maybe I can taste-test that. Now, make sure to let 
everybody know. Thank you.
    I love that 4-H's themes: one of them is 4-H grows 
confidence. From your experience, Jill, how did 4-H contribute 
to your confidence, and your leadership skills?
    Ms. Parrent. Well, I have always been one of those kind of 
outgoing type of kids that always jumps right into it, ever 
since I was really young. But 4-H has truly taught me about how 
to go and get it. So, for example, I had the desire to be on 
our youth leadership team for the state, and so I have worked 
hard since I was 8 years old, doing projects, doing all of my 
records for our states. And whenever I was finally old enough 
to apply to be on our state youth leadership team, I jumped on 
it. It was truly one of the things that I have always wanted to 
do, and now I have the opportunity to serve our state as well 
through 4-H.
    But 4-H has really taught me a lot of skills, from 
confidence, to public speaking, to even just baking, 
electricity, woodworking in general. It is one of those 
programs that nothing else can compare, and I wouldn't ever 
want to switch any of my experiences, or go to any other 
program.
    The Chairman. Excellent, thank you. I know, I know. And one 
last question for you. Because we live in central Illinois, 
what lessons can you take back from your 4-H Conference here in 
Washington, D.C., back to our home in central Illinois?
    Ms. Parrent. Well, something I know I can take back is 
that, working with this diverse group of kids from all across 
the entire nation, I can go back and say, this is what it is 
like. This is how they live their lives, and this is how we can 
compare, and even make our lives better.
    So, for example, we were talking about grocery stores on 
the way here, what we have versus what they don't have, and I 
just thought that was the coolest thing ever. And so just being 
able to go back and say, ``This is what they have versus what 
we don't have,'' or even just different foods that they eat 
that we don't eat, going back and taking that to our community.
    But also, specifically in our 4-H Program, we specifically 
have a Speaking for Illinois 4-H Program, whereas other people 
have conferences for 4-H for their high schoolers. So I would 
love to be able to implement that back in Normal, to take and 
retain that number of older 4-H'ers.
    The Chairman. Well, thank you, Jill, and I want to thank 
everybody again. Does anybody have any more questions, this is 
the end of the hearing. Does anybody have any comments you 
would like to make that you would like to say on any subject? 
Seeing none--we have one?
    Ms. Winters. I just would love to say that it was a 
privilege getting to do this, and having the opportunity, 
especially just hearing all the open-minded ideas that were 
expressed within this roundtable, and all the people that I got 
to meet and talk to, and understand the industry in different 
states. It just was such a privilege, and it was really 
amazing, and eye-opening. And these are lifelong friends that I 
will never be able to forget, and this is an opportunity that I 
probably will never get again. So I just wanted to say thank 
you, and that this was amazing.
    The Chairman. Well, thank you, and never say never. You 
could get another opportunity to sit on that side, or, as I 
said earlier, and all of us who are here today truly believe 
that there is no reason why all of you couldn't be 
Representatives. Or, if you really wanted to go to the House of 
Lords, I mean, if you want to take a demotion, you could be 
Senators too.
    But be confident, and go back to your communities, and talk 
about what you learned here. Talk about the process, about what 
Washington is like, and what you were able to do. Go back and 
continue to be leaders. We started this hearing by talking 
about how we need an urban/rural coalition to continue to have 
good, cost effective farm policy in this country. And we need 
you to go back to your communities and remind them all that we 
need both sides of the aisle, coast to coast, urban and rural 
to make sure that we continue to move projects forward.
    Now, as a closing statement, I just want to say thank you 
again. As somebody who grew up in a very small town, who had 
agriculture all around them, I had no idea what the difference 
was between a planter and a combine until I got into public 
policy. Now we are tasked with sitting in this House 
Agriculture Committee, coming up with farm policy. And it is 
exactly what many of you, in your comments, said about your 
experience in agriculture. You truly are the future of 
agriculture, and the future of ag leadership, and run with 
that. Help us to help you, and to help your industry.
    With that, I would like to add that, under the rules of the 
Committee, the record of today's hearing will remain open for 
10 calendar days to receive additional material and 
supplementary written responses from the witnesses to any 
questions posed by a Member. This Subcommittee on 
Biotechnology, Horticulture, and Research hearing is now 
adjourned.
    [Whereupon, at 2:51 p.m., the Subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
